                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

     Case Number: A-05090068                                                         I          Page 1 of 1       I
             An email from the complainant1that the NSF proposal2 she had received for ad hoc review
             submitted by the subject3 as the sole PI allegedly contained some of her ideas taken from an
             article she had published.4 The complainant provided copies of the proposal and the article with
             the alleged stolen ideas annotated and cross-referenced. We called the complainant, who
             explained she had provided us with everything that had concerned her.

             We determined that the proposal contained no copied text from the article. We compared the
             ideas presented in the proposal with those in the article. Much of the background material
             presented in the proposal and the article contained numerous common references, which was not
             unusual, given the narrow field of study represented in each. We noted that several of the
             complainant's annotated sections were similar, but neither was identical nor improperly cited.
             We also noted that the subject's proposal cited the complainant's article four times, three times
             in the background section of the proposal and one time as the source of a figure used in the
             proposal.

             The subject's and complainant's research areas are the same. Although it is reasonable to believe
             that the subject may have used the article as a basis for part of the preparation of his proposal,
             there is no evidence that he did anything wrong in doing this. He did not 1) copy the text,
             2) copy the ideas without appropriate citation, or 3) copy the organization of background
             information as presented in the article.

             This case is closed and no further action will be taken.




1                                          1                                     '                                1
    NSF OIG Fonn 2 (1 1/02)
